C'OCKLE

2311 Douglas Street Le ga l Brief s E-Mail Address:

 

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1081
ARLENE ROSENBLATT,
Petitioner,

v.
THE CITY OF SANTA MONICA ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LANE DILG, City Attorney
GEORGE S. CARDONA, Special Counsel
KIRSTEN GALLER, Deputy City Attorney
ERICA BIANCO, Deputy City Attorney
Counsel of Record
SANTA MONICA CITY ATTORNEY’S OFFICE
1685 Main Street, Room 310
Santa Monica, CA 90401
(310) 458-8336
lane.dilg@smgov.net
george.cardona@smgov.net
kirsten. galler@smgov.net
erica.bianco@smgov.net
Counsel for Respondents

Subscribed and sworn to before me this 2nd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

‘My Gomm. Exp, September 5, 2023

 

 

mere] Keres. 0. Loa Ondone bh, Ohl

Notary Public Affiant
SERVICE LIST

Robert Lawrence Esensten, Esq.
Counsel of Record

Jordan Sander Esensten, Esq.

Esensten Law

12100 Wilshire Boulevard, Suite 1660

Los Angeles, CA 90025

T: 310-273-3090

resensten@esenstenlaw.com

Counsel for Petitioner Arlene Rosenblatt

Lane Dilg, City Attorney
George Cardona, Special Counsel
Erica Bianco, Deputy City Attorney
Counsel of Record
Santa Monica City Attorney's Office
1685 Main Street, Room 310
Santa Monica, CA 90401
T: 310-458-8336
erica.bianco@smgov.net
Counsel for Respondent City of Santa Monica
